<html>
<title> - DISASTER ASSISTANCE</title>
<body><pre>[Senate Hearing 107-902]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-902
 
                          DISASTER ASSISTANCE
=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                               __________

                              MAY 23, 2002

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry











  Available via the World Wide Web: http://www.agriculture.senate.gov

                                 _______


                       U. S. GOVERNMENT PRINTING OFFICE
86-212                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            JESSE HELMS, North Carolina
THOMAS A. DASCHLE, South Dakota      THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
BLANCHE L. LINCOLN, Arkansas         PAT ROBERTS, Kansas
ZELL MILLER, Georgia                 PETER G. FITZGERALD, Illinois
DEBBIE A. STABENOW, Michigan         CRAIG THOMAS, Wyoming
BEN NELSON, Nebraska                 WAYNE ALLARD, Colorado
MARK DAYTON, Minnesota               TIM HUTCHINSON, Arkansas
PAUL DAVID WELLSTONE, Minnesota      MICHEAL D. CRAPO, Idaho

              Mark Halverson, Staff Director/Chief Counsel
            David L. Johnson, Chief Counsel for the Minority
                      Robert E. Sturm, Chief Clerk
              Keith Luse, Staff Director for the Minority

                                  (ii)
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Disaster Assistance..............................................    01

                              ----------                              

                         Thursday, May 23, 2002
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, a U.S. Senator from Iowa, Chairman, Committee 
  on Agriculture, Nutrition, and Forestry........................    01
Lugar, Hon. Richard G., a U.S. Senator from Indiana, Ranking 
  Member, Committee on Agriculture, Nutrition, and Forestry......    02
Allard, Hon. Wayne, a U.S. Senator from Colorado.................    06
Conrad, Hon. Kent, a U.S. Senator from North Dakota..............    07
Enzi, Hon. Mike, a U.S. Senator from Wyoming.....................    09
Lincoln, Hon. Blanche, a U.S. Senator from Arkansas..............    08
Stabenow, Hon. Debbie, a U.S. Senator from Michigan..............    07
Thomas, Hon. Craig, a U.S. Senator from Wyoming..................    05
                              ----------                              

                               WITNESSES

Barbie, Larry, President, Montana Grain Growers, Inverness, 
  Montana........................................................    15
Chandler, Brian, National Farmers Union, Midland, Texas..........    18
Collins, Keith, Chief Economist, U.S. Department of Agriculture, 
  Washington, DC.................................................    11
Dierlam, Bryan, National Cattlemen's Beef Association, 
  Washington, DC.................................................    20
Green, Bob, Executive Director, Michigan Bean Commission, St. 
  Johns, 
  Michigan.......................................................    22
Hill, Craig, Iowa Farm Bureau Federation, Milo, Iowa.............    13
                              ----------                              

                                APPENDIX

Prepared Statements:
    Harkin, Hon. Tom.............................................    30
    Allard, Hon. Wayne...........................................    33
    Barbie, Larry................................................    65
    Chandler, Brian..............................................    69
    Cherry Marketing Institute, Inc..............................    86
    Collins, Keith,..............................................    42
    Dierlam, Bryan...............................................    75
    Enzi, Hon. Mike..............................................    38
    Green, Bob...................................................    80
    Hill, Craig..................................................    61
    Michigan Farm Bureau.........................................    84
    Roberts, Hon. Pat............................................    31
    Rehberg, Congressman Denny...................................    40
    Stabenow, Hon. Debbie........................................    34
Document(s) Submitted for the Record:
    Baucus, Hon. Max.............................................    92
    Cleland, Hon. Max............................................    90
    Hutchinson, Hon. Tim.........................................    95
    Letter from Kevin and Nancy Wirth............................   102
    Letter from Zane Reese.......................................   103
    The National Grape Cooperative Association, Inc.; Nicholas 
      Pyle.......................................................    97
    Statement of the American Farm Bureau Federation.............   100

                              ----------                              















                          DISASTER ASSISTANCE

                              ----------                              


                         THURSDAY, MAY 23, 2002

                                       U.S. Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:12 p.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Tom Harkin, 
[Chairman of the Committee], presiding.
    Present or submitting a statement: Senators Harkin, Conrad, 
Baucus, Lincoln, Miller, Stabenow, Wellstone, Lugar, Thomas, 
Allard, and Crapo.

    STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, 
              CHAIRMAN, COMMITTEE ON AGRICULTURE, 
                     NUTRITION AND FORESTRY

    The Chairman. The Senate Committee on Agriculture, 
Nutrition and Forestry will come to order on a hearing on 
agriculture disaster assistance.
    Agriculture producers in a number of parts of the United 
States have been badly affected by agriculture disaster losses 
of several types. Fortunately, our nation has not experienced a 
general catastrophic agricultural disaster for several years, 
but there have been severe and devastating losses to farmers, 
ranchers and their communities.
    Today, the committee will receive testimony on the nature 
and extent of those losses and their consequences. We will also 
examine the type and the magnitude of the help that is needed. 
We are here because the need for assistance is real. Probably 
most, if not all, of the members of this committee have heard 
from producers who have suffered losses last year or already 
this year.
    Severe losses from drought have occurred throughout the 
Plains States and across other regions of the United States. 
Drought losses extend to the cattle industry in much of the 
western part of our country. Producers in other parts of the 
country lost crops last year from excessive moisture that 
prevented planting, and that was the case in my State of Iowa. 
This year, producers in Illinois, Indiana, Kentucky, Missouri 
and Ohio have been unable to plant thusfar. In addition, 
damaging weather has generated serious needs for emergency 
conservation assistance, especially through the Emergency 
Watershed Protection Program.
    On February 12, the Senate voted 69 to 30 to waive the 
budget point of order and allow an emergency designation for 
the Baucus Amendment to the Farm bill. The amendment provided 
urgently needed assistance to producers who suffered crop and 
livestock losses in 2001. Because of objections from the House 
Budget Committee and the House leadership, we were unable to 
include this in the Farm bill, and the administration similarly 
opposed the emergency designation for this assistance in the 
Farm bill. I am not certain that they are opposed to it as 
such; they were just opposed to it being in the Farm bill; that 
is all.
    The committee will examine in this hearing and in further 
consideration the help provided by existing programs, including 
the Federal Crop Insurance Program and other USDA assistance 
and the limits of that assistance. We have made significant 
improvements in the crop insurance program, but producers 
continue to depend on assistance for losses that are not 
adequately covered by crop insurance. Livestock producers lack 
an effective risk management system for pasture, range and 
forage crops, and they likewise lack an effective USDA 
livestock assistance program.
    I look forward to today's testimony and to appropriate 
committee action very soon to respond to the several disaster 
losses that have damaged agriculture producers across our 
nation.
    [The prepared statement of Sen. Harkin can be found in the 
appendix on page 30.]
    With that, I would recognize our distinguished ranking 
member, Senator Lugar.

 STATEMENT OF HON. RICHARD LUGAR, A U.S. SENATOR FROM INDIANA, 
                 RANKING MEMBER, COMMITTEE ON 
              AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Lugar. Thank you very much, Mr. Chairman.
    Let me ask that unanimous consent be given to include a 
statement by Senator Roberts in the record.
    The Chairman. Without objection.
    [The prepared statement of Senator Roberts can be found in 
the appendix on page 31.]
    Senator Lugar. Thank you very much, sir.
    Agriculture is inherently a risky business, subject to 
hazards of weather and uncertain markets. In recent years, 
national crop yields for major field crops have been above 
average. The country has been blessed generally by relatively 
good weather, at least on an overall national basis.
    However, as farmers and ranchers know, national crop yields 
can mask what is going on in individual regions or, for that 
matter, even on individual farms. In most years, farmers and 
ranchers in one or more regions experience weather-related crop 
and forage losses, and most recently, farmers and ranchers in a 
number of western states are dealing with a seemingly prolonged 
drought that adversely affects crop and forage production last 
year and is continuing this year.
    Last year, producers experienced weather-related problems 
in other areas as well. This year's 2002 crop growing season is 
just getting underway for most spring-planted crops. We have 
several witnesses with us today who can give us detailed 
assessments of what occurred last year as well as the prospects 
for this season.
    Senator Baucus, as the Chairman has pointed out, has 
introduced emergency disaster assistance legislation that would 
provide $1.8 billion in disaster payments to farmers for 
weather-related 2001 crop losses and $500 million in disaster 
payments to livestock producers who suffered grazing losses 
during calendar 2001; thus, a total of $2.3 billion for the 
2001 crop and grazing losses, not including separate provisions 
for payments to apple growers and funding for USDA 
administration.
    Senator Baucus' emergency assistance legislation was 
included in the Senate-passed farm bill, but the $2.3 billion 
in emergency crop and forage loss disaster payments was not 
retained in the final Farm bill conference report that the 
President signed into law last week.
    During the conference, the administration's position was 
that any agriculture disaster spending should be a part of and 
not an addition to the $73.5 billion farm bill budget. The 
administration was right on this budget issue. We have just 
enacted a new farm bill, which the Congressional Budget Office 
currently estimates will cost $82.8 billion over baseline, and 
the baseline has been increased now to $107 billion. This is $9 
billion more than the $73.5 billion originally envisioned for 
the Farm bill in the 2002 budget resolution.
    More importantly, the Congress always intended that the 
$73.5 billion be available for the Farm bill as long as such 
spending did not dip into Social Security trust funds. We know 
that the Farm bill spending will dip into the Social Security 
trust fund this year and very likely for the next several 
years, because the overall Federal budget projections changed 
long before we finished the Farm bill conference report.
    Now, unless offset by cuts in other spending or increases 
in revenues, enactment of any new agriculture disaster 
assistance legislation also will dip into the same Social 
Security trust fund even more.
    Some will no doubt argue that Congress has regularly 
provided emergency disaster assistance to farmers in the past 
and that such emergency spending is appropriate when our 
producers are faced with a natural disaster. This was true in 
the past, but the crop insurance reform legislation enacted in 
June 2000, which took effect with the 2001 crops, was supposed 
to eliminate the need for any future ad hoc emergency crop 
disaster assistance. The crop insurance bill was a $20 billion 
bill over a 10-year expansion of the Federal crop insurance 
program, which already was extensive, and the non-insured crop 
disaster assistance program for non-insurable crops.
    The crop insurance bill greatly increased premium subsidies 
to make higher so-called buy-up levels of crop insurance more 
affordable. It also greatly expanded the availability of NAP 
disaster payments for the non-insurable crops by eliminating 
the NAP area-based trigger. The dominant theme of the crop 
insurance bill debate was that these reforms were necessary to 
avoid the need for ad hoc crop disaster assistance payments in 
the future.
    The crop assistance bill took effect for the 2001 crops, 
and farmer participation in the program has increased to a very 
high level, including the drought-affected western states such 
as Montana. According to USDA, 91 percent of Montana's acres 
planted wheat were insured with Federal crop insurance in 2001, 
and over 80 percent of those acres were insured with the higher 
level buy-up coverage. Virtually 100 percent of Montana barley 
acres were insured last year, with 90 percent protected with 
buy-out coverage.
    Now, I would just say parenthetically, Mr. President, that 
this leads to the question that I will have of the witnesses as 
to the need to provide disaster payments for crops already 
insurable under the Federal Crop Insurance Program or for non-
insurable crops already eligible for disaster payments through 
NAP. I want to be helpful to farmers and ranchers who are 
facing severe weather-related losses, and I would like to 
explore these budget and policy issues before we proceed with 
any new legislation.
    I would add, Mr. President, in my own case that I add 
anecdotally in many of these hearings, we have not been able to 
plant at all. We still have all of our soybeans still to be 
planted; all of our corn still to be planted. That is true of 
about 87 percent of the acres of Indiana as we speak on the 
23rd of May, which is very late in the game, and we are 
prayerful for a late frost.
    In any event, I and most of the farmers who live around me 
have purchased crop insurance, and in most cases, it is at the 
85 percent level, which means for the benefit of the hearing 
that given a 5-year base that is a part of that crop insurance 
situation, if, for some reason, my crop is a total disaster or 
nearly that by the end of the day that I am going to receive 85 
percent of the normal revenue that I would anticipate.
    That is available to every farmer in America. The question, 
I suppose, that some of us will have today is why are we here 
on this subject? Now, the livestock question is a different 
one. Clearly, we do not have insurance there. I would mention, 
Mr. President, during the Farm bill debate, I offered as an 
alternative solution an income safety net for livestock 
producers as well as for those with crops and vegetables and 
anything, any agriculture income whatsoever, insurance at an 80 
percent level over a 5-year history of time.
    Now, that is not 100 percent, not 90 percent, but in terms 
of a reasonable payment for everybody in agriculture, across 
the board, every state, it appeared to me to be a logical way 
of trying to solve the disaster problem as well as some 
continuity for farmers who needed to have certain income. That 
idea received 30 votes, and I appreciate that that was the 
extent of support, and another view has been taken.
    At the time, I do not recall the same urgency with regard 
to livestock that I see now. In due course, perhaps there will 
be further consideration of how we provide a safety net in an 
equitable way for all of us as opposed to doing it crop-by-crop 
or livestock as opposed to crops or various states that have a 
specific problem when, indeed, this committee has really tried 
to wrestle with this I think constructively for several years.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    It is the chair's intent now to recognize Senators in the 
order in which they appeared going back and forth, so I would 
recognize in this order for opening statements Senator Miller, 
Senator Thomas, Senator Wellstone, Senator Crapo, Senator 
Conrad, Senator Allard and then Senator Stabenow for any 
opening statements that you may have.
    Senator Miller.
    Senator Miller. I have no opening statement.
    The Chairman. Thank you, Senator Miller.
    Senator Thomas.

  STATEMENT OF HON. CRAIG THOMAS, A U.S. SENATOR FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    I do want to comment. I appreciated my friend's comments 
from Indiana, but I come from a livestock State, so I do want 
to mention that, and certainly, all of us are aware of the 
problems we have. In Wyoming, this is the third year of 
continuous drought that we have suffered. It makes it much 
worse, particularly when you depend on snow pack and so on, and 
ours is much less.
    Our Governor has declared a primary disaster for the whole 
state, and obviously, crop insurance is not very useful for 
livestock people, as you have suggested. Furthermore, half of 
our State is public land, so much of our livestock grazes on 
public lands. Those public land managers are going to have to 
cut back on their capacity this year, so it makes it most 
difficult. Hay prices have skyrocketed, of course, so the 
livestock people are unable to find alternative ways to take 
care of that livestock.
    We do need to look for a long-term solution. Now, we are 
dealing with the immediate difficulty. I hope that we can look 
at it over time. I have a bill that I am interested in that 
would provide at least for some capital gains reductions if 
people have to sell their livestock because of this, and I hope 
we can pursue that.
    However, assistance is needed now. I hope we can offset it. 
I hope we can find a place to offset this, and I understand 
Senator Burns has found a way to do this hopefully. We need to 
treat this as an emergency situation, and I look forward to 
hearing the testimony today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Thomas.
    Senator Wellstone.
    Senator Wellstone. Thank you, Mr. Chairman.
    I know we have got votes about 4:45, and then, once we 
start voting, we are going to vote, vote and vote, so you need 
to get on with the hearing.
    The Chairman. We need to move.
    Senator Wellstone. Why don't I--I have got a great 
statement here.
    [Laughter.]
    The Chairman. Thank you for yielding.
    Senator Wellstone. Well, I did not say yet I was going to 
yield! My God! The pressure is unbearable.
    [Laughter.]
    Senator Wellstone. Yes, I will yield. I will yield.
    The Chairman. No, come on, go ahead.
    Senator Wellstone. No, that is all right.
    The Chairman. Thank you, Senator Wellstone. Thank you.
    Senator Crapo? He must have left.
    Senator Thomas. Oh, I meant to mention that he indicated he 
had to leave, but he is in favor of doing something here and 
wanted you to know that.
    The Chairman. Senator Allard.

  STATEMENT OF HON. WAYNE ALLARD, A U.S. SENATOR FROM COLORADO

    Senator Allard. Mr. Chairman, I want to thank you for 
holding this timely hearing.
    The situation in Colorado can be just summed up very 
simply, and that is that it is bone dry. Of course, being dry 
is not unusual in the arid West. What is unusual is the 
severity of this drought. Well over half of the State is in 
extreme drought, and the drought in the luckier parts of the 
State is either moderate or severe. Some areas of Colorado are 
entering a third year without adequate moisture; other areas 
are experiencing the driest conditions in 100 years.
    Rivers are drying up; the snow pack, measured by the 
Natural Resource Conservation Service, is 10 percent of 
average. It is gone: acres of farmland that once held the hopes 
of a prosperous crop have turned into dust. The impact on the 
environment is easy to see: pastures are brown with no new 
growth. The wheat has shriveled in the ground, and corn, if it 
made it out of the ground, is wilting in the row.
    The impact on the citizens of the United States in the 
State of Colorado is also easy to see. In the proud community 
of La Junta, a small Southern Colorado town, they are 
experiencing traffic jams--yes, a small town with a traffic 
problem, not because of highway construction or population but 
because of the streaming line of trucks hauling cattle to the 
sale barn. Cattle volume is not the only record falling, 
either. Last week, my staff in Colorado informed me that a 
sale--just one sale--lasted nearly 24 hours straight, running 
from 9 a.m. to 6:30 a.m. the next morning. The La Junta sale 
sold nearly 6,000 head from 291 consignees.
    Record-breaking volume at livestock sales has flooded the 
market with cattle. Their owners are desperate to salvage any 
remaining value while they search for hay and pasture. I have 
even read where one of the State's biggest sale barns explained 
to buyers and sellers about a lot of 30 healthy young cows. 
They just flat ran out of feed. They are just a powerful set of 
cattle, but ``they don't have nothing to eat'' was the quote.
    From Ignacio, Colorado in the southwest corner of the 
State, where a rancher sold 85 percent of his herd, to Boulder 
in the north, where a third-generation rancher watched his 
natural springs run dry, the situation is nothing short of 
dire.
    I am just about finished, Mr. Chairman.
    The Chairman. I understand. I have just been informed that 
now, the vote is at 4:20. We really do have to move with the 
committee. I am sorry, Senator. Please wrap up.
    Senator Allard. OK; very briefly.
    The papers are already proclaiming that this year's drought 
is sure to bankrupt some farmers and ranchers. There is a big 
part of Colorado that depends on agriculture, and it is 
expected to amount to about a $16 billion impact on the 
economy.
    Mr. Chairman, I would just ask that the remainder of my 
statement be made a part of the record.
    [The prepared statement of Senator Allard can be found in 
the appendix on page 33.]
    The Chairman. I appreciate that, Senator Allard, and I 
really do not want to cut Senators off, but if we have a 4:20 
vote, and if we have witnesses who have come from across the 
country to be here, I ask your indulgence unless there----
    Senator Wellstone. Mr. Chairman, there are going to be a 
lot of votes, so you will not even be able to come back.
    The Chairman. That is what I mean.
    Senator Wellstone. Yes.
    The Chairman. We will not be able to come back. Once we 
leave here, we cannot come back.
    Unless someone has a very short, short statement, I would 
recognize them for that, and the next one is Senator Conrad.

STATEMENT OF HON. KENT CONRAD, A U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. Very short.
    Let me just say this question of spending is very 
important, because we have heard in the press over and over 
what huge increases in spending are coming from this Farm bill. 
It is just not the case. If you look at 2002 under this new 
Farm bill, the total spending will be $14.2 billion. In 2001, 
the spending from the Federal Government for farmers was $22 
billion. $22 billion is more than $14 billion in the math I 
learned back home in North Dakota.
    Not current spending under the Farm bill being more, but 
last year's spending is more than under this Farm bill. It is 
not just last year, but the year before that, Federal spending 
by the Federal Government was $32 billion. That is almost 
double what it is going to be under this Farm bill. I have not 
seen one press report that has got this right, not one.
    All the reporting talks about big increases under this Farm 
bill. There are big increases in this Farm bill over what the 
old Farm bill provided, but as everyone here knows, there was 
not just farm bill spending; there was also economic disaster 
spending every year for the last 4 years. The year before 2000, 
it was $19 billion. That is more than the spending that will be 
in this year under the Farm bill. It would be just nice to see 
one time somebody get this right, just once.
    There is not more spending; there is less spending. I hope 
maybe the word can get out as to what the facts are about this 
Farm bill, not these misleading headlines about these massive 
increases. They are not massive increases. There is less money 
going to farmers from the Federal Government than last year and 
the year before and the year before that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Conrad.
    Again, very briefly, please.
    Senator Stabenow.

STATEMENT OF HON. DEBBIE STABENOW, A U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. Well, thank you, Mr. Chairman.
    I will ask for the record to have my complete statement.
    The Chairman. Absolutely.
    Senator Stabenow. This is a very critical issue for the 
State of Michigan. I just want to acknowledge that we do have a 
witness from Michigan today, whom I was very pleased to invite, 
Bob Green, who is the executive director of the Michigan Bean 
Commission, who will provide an overview of the losses suffered 
by Michigan bean growers and other producers, and I would just 
say for the record that 2001 was the worst year in recorded 
history, the worst year in recorded history, for dry bean 
growers in Michigan, and because beans and our specialty crops 
and other crops that we grow in Michigan are not covered by 
Federal farm programs, in many cases, they are not eligible for 
crop insurance, which is a very important piece for us to 
remember as we consider assistance.
    I hope we will, in fact, come forward with a disaster 
assistance program, and I also would have to say on behalf of 
the asparagus growers in Michigan that addressing market loss 
would also be another issue that I would like to address.
    Thank you.
    [The prepared statement of Senator Stabenow can be found in 
the appendix on page 34.]
    The Chairman. Thank you, Senator Stabenow.
    Senator Lincoln.

STATEMENT OF HON. BLANCHE LINCOLN, A U.S. SENATOR FROM ARKANSAS

    Senator Lincoln. Mr. Chairman, thank you so much for your 
tireless leadership on this and so many other issues. I 
appreciate that this hearing is dedicated to the needs of 
farmers and ranchers who have been hurt by too little or too 
much water. In my State, there are two additional concerns for 
two very important sectors of our farm economy. First, the 
poultry producers are dealing with a highly contagious low 
pathogen avian influenza problem that is being used by our 
trading partners as an excuse to block our poultry exports.
    Arresting the spread of avian influenza means the 
destruction of entire flocks, which, in turn, could mean the 
loss of a producer's entire revenue. Thus, there could be 
financial disincentives for poultry producers to admit that an 
avian influenza exists among its flocks, even though it is in 
the better interest of the domestic industry as a whole to do 
everything possible to contain the disease.
    For my state, there are no known occurrences of the avian 
influenza, but the threat of spread to our state is very 
frightening. We would like to take this opportunity to urge the 
Chairman to hold more hearings to investigate the dangers of 
the avian influenza and to explore whatever options are 
available to Congress to deal with that problem.
    With that, I would just like to raise the last issue of 
concern, and this one is affecting our State's forestry sector. 
As the subcommittee chairwoman over Forestry, my subcommittee 
is preparing to hold an oversight hearing regarding the severe 
oak mortality that is being experienced in Arkansas and the 
hardwood forests in the central and eastern U.S. The severe oak 
decline is not just a disaster waiting to happen; it is already 
destroying our public and private forests.
    Over a million acres of red oaks will be impacted just 
during this year throughout only Arkansas and Missouri. Mr. 
Chairman, I appreciate all that you do and would like to ask 
unanimous consent to have my entire statement inserted in the 
record but hope that these two issues are something that we can 
deal with in hearings and hopefully in whatever approach we 
take in disaster assistance.
    Thank you.
    The Chairman. I appreciate that, Senator Lincoln.
    Now, we will have to move ahead. Senator Enzi, you have 
been very patient. Thank you for being here. For you and 
everyone else, your entire statements will be made a part of 
the record, and please proceed, Senator Enzi.

    STATEMENT OF HON. MIKE ENZI, A U.S. SENATOR FROM WYOMING

    Senator Enzi. Thank you, Mr. Chairman and members of the 
committee for hearing my testimony, and I appreciate that the 
full statement can be included in the record, so I will 
condense somewhat. I appreciated your promise to Senator Baucus 
that you would hold this hearing and that you are doing it 
today.
    I wanted to testify for a very specific reason, and that is 
that the Wyoming livestock producers as well as the other 
livestock producers are in dire need of assistance, and your 
bill could provide it. Wyoming is in the third year of a 
drought. Producers that sold or reduced their herds in the 
first year have been unable to buy replacements, and the tax 
relief use on forced sales is running out.
    Now, even more producers are being forced to sell their 
livestock in irrational markets due to prohibitively expensive 
prices of hay and the rejections from drought-stricken public 
grazing lands. I appreciate that you provide the water in 
bottles here so that we can conserve on that water. Whenever I 
leave now, I feel compelled to drink that water, the drought in 
the West is so severe.
    Though I have been most vocal for livestock producers in my 
State, my crop producers have also suffered from the merciless 
drought, but I concentrate on livestock, because they have been 
completely left out. The Livestock Assistance Program is a 
program available to livestock producers in counties that have 
been declared disaster areas by the President or Secretary of 
Agriculture. It provides a minimal financial relief to 
livestock producers that are experiencing livestock production 
loss due to drought and other disasters but only if there is 
money in the fund. Then, there are tremendous delays built in, 
because everybody has to apply, and the money is divided up 
among those people who have it. Of course, if there is no 
money, nobody gets anything.
    In fiscal year 2000, the Livestock Assistance Program was 
funded at approximately $430 million. In Wyoming, 933 producers 
received almost $8 million in assistance from those funds. Now, 
that is an average of $8,313 per producer. Nationally, it 
provided assistance to about 186,000 producers at 88 percent of 
their grazing loss for drought and other disasters experienced 
in 2000. The need was similar in 2001. Yet again, I repeat, no 
funds were provided for livestock producers, but crop producers 
received their emergency payment.
    I thought I could hear relief coming when Senator Baucus 
and I successfully added an agriculture disaster assistance 
package to the Farm bill with a resounding 69-30 vote. I 
commend the Senate Farm bill conferees for their attempts to 
retain the agricultural disaster spending in the Farm bill 
conference report, but the final report contained no disaster 
assistance. What is the use of a farm bill if my State's farms 
and ranches have been sucked dry and are out of business?
    Many of the new and innovative rural development programs 
and the Environmental Incentives Program EQUIP will not be of 
any value if there are no farmers and ranchers left on the 
land. I received a lot of hopeful calls after the conference 
report passed. Many of my constituents knew of the disaster 
assistance amendment, and they were hopeful that relief was on 
the way with the Farm bill's passage. It was difficult to 
explain why the assistance was no longer in the bill.
    It is now May 2002. I find it astounding that I am still 
working to remedy disaster experience in 2001. This spring's 
complete lack of moisture has promised that more of the same is 
yet to come. We in Wyoming are trying to be proactive. Governor 
Geringer has already requested the entire State of Wyoming be 
declared a disaster area. I know that USDA is processing that 
application. The Farm bill conference report did include an 
amendment that I offered to authorize the livestock feeding 
assistance. With its passage, the Secretary of Agriculture now 
has the authority to use that program to provide assistance to 
livestock producers.
    The program is no longer ad hoc. It is my hope that the 
appropriators will consider this authority and potential need 
for assistance in 2003. I was pleased to hear the announcement 
yesterday that USDA, through the Farm Services Agency, has 
allowed Early Conservation Reserve Program grazing in Wyoming's 
Campbell County. In these extreme circumstances, this will 
allow producers to graze land that they had agreed to set aside 
for conservation.
    Although it is outside the scope of this committee, I have 
also been working to ensure that other Federal agencies offer 
this same consideration to strapped producers. I recently sent 
a letter to the Bureau of Land Management encouraging their 
flexibility while working with permitees on drought-stricken 
Federal grazing allotments.
    I present these nuggets of hope to you today to show that I 
am not asking this committee to act when I have not puzzled and 
considered and acted myself. Wyoming cannot conquer this 
drought alone, so I come to you asking you to do something for 
the livestock industry.
    Thank you very much for your time.
    [The prepared statement of Senator Enzi can be found in the 
appendix on page 38.]
    The Chairman. Senator Enzi, thank you very much for your 
patience. Thank you for your strong support of this, and I know 
that you were one of the strong supporters on the Senate floor 
when we adopted that provision. As you know, this committee is 
going to continue this hearing, and hopefully, we will make 
some movement on getting a bill out as soon as possible.
    Senator Enzi. Thank you.
    The Chairman. Thank you, Senator Enzi.
    I also want to note that Congressman Rehberg was here. I do 
not know--is Congressman Rehberg still here? Congressman 
Rehberg had a statement, and without objection, I will make it 
a permanent part of the record right after Senator Enzi's 
statement.
    [The prepared statement of Congressman Rehberg can be found 
in the appendix on page 40.]
    The Chairman. Now, we would like to call to the table Mr. 
Keith Collins, chief economist, U.S. Department of Agriculture. 
I guess we are going to bring everybody up here: Mr. Craig 
Hill, Iowa Farm Bureau Federation; Mr. Larry Barbie, president 
of the Montana Grain Growers; Mr. Brian Chandler of the 
National Farmers Union; Mr. Bryan Dierlam, the National 
Cattlemen's Beef Association; and, as Senator Stabenow already 
introduced, Mr. Bob Green, executive director of the Michigan 
Bean Commission.
    Senator Thomas. Mr. Chairman, can I interrupt just long 
enough to welcome particularly Mr. Dierlam, who has come to 
represent the stock growers? He is also getting married on 
Saturday.
    [Laughter.]
    The Chairman. You can focus on this today?
    [Laughter.]
    Mr. Dierlam. It took a little pressure off the wedding.
    [Laughter.]
    The Chairman. Someone told me your fiancee is in the 
audience. Is that right?
    Mr. Dierlam. About 15 or 16 family members.
    [Laughter.]
    The Chairman. Well, why don't they all stand up? Let us 
applaud them. Thanks for being here today.
    [Applause.]
    The Chairman. Have a great wedding. I hope you have great 
weather for it.
    Mr. Dierlam. Thank you, Chairman.
    The Chairman. Thank you.
    Now, we will start with Dr. Keith Collins.
    Dr. Collins.

STATEMENT OF KEITH COLLINS, CHIEF ECONOMIST, U.S. DEPARTMENT OF 
                  AGRICULTURE, WASHINGTON, DC

    Mr. Collins. Thank you very much, Mr. Harkin, members of 
the committee. Thank you for the opportunity to invite USDA up 
to discuss how weather has affected agriculture this year and 
last year. I sent you a rather lengthy statement with a lot of 
tables and charts attached to the back. I hope that will help 
the committee and your capable staff members as they negotiate 
this difficult issue.
    The major weather events over the last 2 years have been 
drought and excess moisture. The charts attached to my 
statement start with the drought monitor, a tool which 
classifies the degree of drought based on a variety of factors. 
It shows that the drought intensified along the Eastern 
Seaboard states last year; dissipated last spring and summer 
with rain; came back last fall and winter with the dry winter 
we had; and is now dissipating or diminishing a little bit with 
this spring's rains.
    In the western states and mountain states, however, the 
problem has been much more chronic. The northwest suffered 
drought in 2000. That spread into the mountain states and the 
western plains states during 2001. Drought is now more serious 
today than it was a year ago at this time, and it is most 
intense in the western plains, the southwest, South Texas and 
parts of the southeast.
    The most recent outlook of the National Weather Service for 
this summer forecasts the drought to intensify in the southwest 
as well as in Montana, Idaho, South Texas and across the lower 
Mid-South. Wet conditions are expected to persist in the 
eastern corn belt.
    The primary effects on agriculture have come on cattle and 
crop production. The lack of forage and the increased cost of 
supplemental feeding has forced cattle producers in the western 
and mountain states to move their animals into feed lots rather 
than to maintain or expand their herds. Placements into feed 
lots in the first quarter were almost 7 percent above the first 
quarter of 2001. Coupled with heavier slaughter weights, beef 
production has been rising, just the opposite of what we had 
expected to happen here in 2002. The combination of increased 
beef production, a decline in meat exports across the board, a 
slowdown in domestic meat demand and rising production of 
competing meats have all caused cattle prices to decline. First 
quarter cattle prices were 10 percent below the first quarter 
of a year ago, so you are selling cattle into a weak market.
    Turning to crops, the drought has reduced this year's 
winter wheat production, we estimate by a potential 150 to 200 
million bushels, a drop from 1.5 to 1.3 billion bushels of 
winter wheat. In 2001, we estimate the weather reduced winter 
wheat by nearly 100 million bushels, and last year's spring 
wheat crop was also reduced in Montana by about a third.
    Drought has also reduced crops in other regions. In 2001, 
we had cotton in Texas reduced. We had cane sugar in both 
Louisiana and Florida reduced. We had citrus in Florida 
reduced. We also had other weather events like cold weather in 
California and Arizona which reduced lettuce production this 
year.
    While the western plains and mountain states have been 
parched, the problem in the eastern corn belt has been 
excessive rain. In 2001, we had generally excellent corn and 
soybean crops, but this year's weather problems could give us 
serious production problems. In Missouri, Kentucky, Ohio, 
Indiana and Illinois, only 25 percent of the corn and soybean 
acres that farmers intend to plant had been planted by last 
Sunday, May 19. That is roughly 23 million acres of corn and 
soybeans that had not been planted.
    The next 2 weeks are going to be critical for corn 
producers in the states that are having the wettest problems. 
We are going to be conducting a very large survey in the first 
2 weeks of June to measure planted acreage, and we will be able 
then to determine what farmers actually planted compared to 
their intentions.
    In the face of these weather-related problems, the 
Department has been operating quite a range of programs to help 
offset the production losses that farmers are facing. The 
cornerstone of these programs is Federal crop insurance. As a 
result of the increased premiums provided by the Ag Risk 
Protection Act of 2000, enrollment in crop insurance rose to 
212 million acres in 2001. That was 17 percent above the level 
in 1998.
    Over 80 percent of eligible acreage was enrolled in 2001, 
and producers are also purchasing insurance at a higher 
coverage level. For wheat, participation is above 80 percent in 
most of the drought-affected states. Another key program is the 
Non-Insured Crop Disaster Assistance Program or NAP, and NAP 
provides protection for non-insurable crops, including forage 
for animal consumption. We recently made a number of changes in 
this program to make it more helpful to producers, including 
the coverage of unseeded forage on public range lands.
    In the Emergency Conservation Program--that is another 
program that can help producers by rehabilitating farm land, 
carrying out emergency water conservation and providing water 
assistance to livestock and to producers who irrigate orchards 
and vineyards should they be short of water. USDA has also 
authorized emergency haying and grazing of Conservation Reserve 
Program acres. Last year, we authorized it in 162 counties in 
11 states, and yesterday and this morning, the Secretary 
notified 85 counties in 7 states that grazing would be 
permitted this year.
    USDA also provides low-interest emergency loans to help 
producers recover from natural disasters. There has to be a 
disaster declaration. Far this calendar year, either the 
President or the Secretary have designated more than 1,100 
counties as disaster areas. Finally, the 2002 Farm bill 
provides direct and countercyclical payments for program crops 
that will not decrease if weather reduces a producer's 
production.
    In summary, Mr. Chairman, weather has affected a range of 
producers the past 2 years, with livestock producers being 
particularly hard hit. At the Department, we are monitoring the 
situation closely and working diligently to ensure the full 
range of programs available to mitigate the adverse effects on 
producers are being employed in a timely and efficient way.
    Thank you.
    [The prepared statement of Mr. Collins can be found in the 
appendix on page 42.]
    The Chairman. Thank you very much, Dr. Collins, and we will 
hold the questioning until we get through all of the witnesses.
    Next, we have Mr. Craig Hill, a neighbor of mine, 
representing the Iowa Farm Bureau Federation from Milo, Iowa.
    Craig, good to see you.

  STATEMENT OF CRAIG HILL, IOWA FARM BUREAU FEDERATION, MILO, 
                              IOWA

    Mr. Hill. Good afternoon.
    My name is Craig Hill, and I serve as the vice-president of 
the Iowa Farm Bureau Federation. I am also a crop and livestock 
producer from south central Iowa. The Iowa Farm Bureau 
Federation represents nearly 155,000 farm families and 
appreciates the opportunity to provide this testimony before 
you today.
    I am here to ask for your assistance in providing help to 
those producers who suffered crop-related losses last year. The 
severe weather conditions have had a negative impact on the 
livelihood of America's farmers in the rural communities in 
which they operate.
    Senators emergency relief is important at this time. We are 
pleased to work with the committee and have been working with 
the committee in the drafting of the new Farm bill. We 
supported its final passage. This bill will benefit farmers by 
improving the safety net features of the 1996 FAIR Act, and 
certainly, the additional safety net features of this bill and 
the supplemental payments provided in previous years are 
important in ensuring that farmers can meet their financial 
obligations and remain on the farm.
    However, farmers have suffered crop losses, and those crop 
losses continue to have economic concerns, and those producers 
will not receive any assistance through the Farm bill for 
losses last year. Producers in southern Iowa are seeking 
disaster assistance for the past crop year to help them with 
their cash-flow problems. Eight of the past 10 years have been 
short crop years for producers in this region.
    The cumulative effect of these short crop years has been to 
whittle down the effectiveness of the safety net provisions 
provided through farm programs and through crop insurance. I 
believe that crop insurance is a viable tool to help producers 
manage their own risks. The new Farm bill improves that by 
further reducing the costs to producers of buying adequate crop 
insurance coverage. However, for producers in southern Iowa and 
many regions of the country, crop insurance falls short of 
their needed protection.
    As I mentioned, 8 of the past 10 years have been poor crop 
producing years in southern Iowa, and crop insurance coverage 
has been--excuse me--the impact of this has been, as you know, 
to increase rates and reduce yield coverage. Thus, producers 
pay more for less coverage.
    The continual planting problems in this region have 
contributed to a reduced safety net. Despite this, producers in 
Iowa and in southern Iowa continue to rely heavily on the crop 
insurance program to help manage their risk. As you can see 
from the attached chart, the amount of acreage covered by crop 
insurance in these six counties ranges from a low of 81 percent 
to a high of 95 percent.
    Last year was a particularly hard year for many producers 
in southern Iowa. The Secretary of Agriculture has recently 
declared many counties in Iowa a Federal disaster area. This 
opens the door to some assistance, but this assistance is 
primarily low-interest loans. These producers need cash-flow, 
not more loans.
    In addition to the six counties, prevented planting acres 
for corn and soybeans totaled 104,000 acres. Total acres 
planted in 2001 in Jefferson and Van Buren Counties was reduced 
by 25 percent. Nationally, losses for producers totaled nearly 
$2.3 billion. These losses are not covered by crop insurance, 
and Iowa crop producers had losses not covered by crop 
insurance totaling $30.8 million and livestock producers by 
$3.12 million.
    Over the last several years, Congress has provided 
emergency assistance to producers across the country, in part 
due to unfavorable weather conditions. Based on the poor 
weather that many Iowa producers faced in 2001, I believe we 
should again provide disaster assistance to those producers.
    Thank you for the opportunity to be here today to represent 
the interests of the Iowa producers before this committee. I 
will be happy to respond to questions.
    [The prepared statement of Mr. Hill can be found in the 
appendix on page 61.]
    The Chairman. Thank you very much, Craig.
    Now, we will turn to Mr. Larry Barbie, president of the 
Montana Grain Growers.
    Senator Baucus. Mr. Chairman, if I might just introduce----
    The Chairman. I am sorry.
    Senator Baucus. No problem.
    The Chairman. I did not see you come in from the floor.
    Senator Baucus. Larry is, as you mentioned, head of the 
Montana Grain Growers. He comes from one of the most generally 
prosperous parts of farm country in Montana, which is probably 
one of the greatest hit by the drought, now, in our State of 
Montana. He is a terrific farmer, a good friend, and I am just 
very honored to have you here, Larry.
    The Chairman. Well, thank you very much, Senator Baucus.
    Mr. Barbie.

 STATEMENT OF LARRY BARBIE, PRESIDENT, MONTANA GRAIN GROWERS, 
                       INVERNESS, MONTANA

    Mr. Barbie. Mr. Chairman, members of the committee, thank 
you for the opportunity to provide testimony on natural crop 
disaster assistance for my producers. I raise wheat and barley 
near Inverness, Montana, located in the north central part of 
the State about 25 miles from the Canadian border.
    I currently serve as Montana Grain Growers' president, a 
primary commodity organization representing wheat and barley to 
our producers and our State. Wheat and barley are by far the 
two major crops grown in the State, accounting for an average 
of $1 billion of gross sales per year. Agriculture is the 
largest industry in the State. In 2000, 36 percent of Montana's 
economy derived from my industry.
    I come here today with the heavy responsibility of trying 
to describe how the horrible ravages of a multi-year drought 
have evaporated more than soil, moisture and stock water 
reservoir in my area of the nation. The financial future and 
the long life dreams of success for thousands of Montana 
farmers have dried up and are blowing away in the same winds 
that sift the soil from our fields. The lack of quick 
assistance will lead to more rapid consolidation and larger 
farms. Without assistance, moderate-sized family farms will be 
the first to go.
    While wheat and barley production is about half of normal 
in 2001 for the entire State, my area was much worse. Most 
farmers harvested little crop, and many had no crop at all in 
this area of Montana. Wheat yields are normally from 35 bushels 
to 60 bushels per acre. The previous years of 1998 and 1999 
were much below average as well, and the crop year of 2000 was 
only slightly better than 2001.
    In the latest drought monitor survey last week, central 
Montana was still the most drought-stricken locality in the 
nation. Our farmers are desperate, and they need assistance 
now. The current drought has undercut the present and future 
financial viability of not just our farmers but the entire 
agriculture-related economies of the region. Unfortunately, 
without natural disaster assistance, many of the producers will 
not be around to participate in the benefits of the new Farm 
bill.
    Some question why crop insurance is not enough to provide 
aid during times of crop loss. One year crop loss, there is 
some merit to that argument, although the deductible of crop 
insurance policies is 30 to 35 percent, an amount that would be 
inconceivable for many forms of insurance. A relatively well-
managed farm, like other businesses, cannot stand one year of 
loss and still remain viable. Two or three or four continual 
years of loss would devastate nearly every business.
    With the double whammy of extended drought in area that 
average yields on which our safety net is based and brings 
insects and pests such as grasshoppers, cutworms and wheat mite 
infestation that threaten to eat up even more of the crop 
insurance proceeds.
    I wanted to say in final words about the financial impact 
on the whole community. During weather disasters of flood, 
fire, tornado or hurricane, a disaster is followed by a process 
of rebuilding. Economic losses trigger the influence of new 
construction and new employment. Drought has no such economic 
effect. Farmers cut back to survive, while businesses they 
formerly patronized wither. The last remaining implement dealer 
in my area closed last year. Farm supply businesses have 
reported a 50 percent decline in the amount of fertilizer and 
crop protection products they have sold. Grain elevators sit 
empty. Employees have been let go, and the planned construction 
of a new shuttle train loading facility 60 miles from me has 
been put on hold. Mental stress on families and on neighbors 
creates a dark cloud of gloom, one which has replaced long-
absent ones in the heavens.
    While words can never adequately describe the bleakness of 
the drought-ravaged field, I hope today that my testimony has 
helped the committee realize how uniquely devastating the 
current situation is. The infusion of capital from the natural 
disaster aid bill will not alleviate the drought but would help 
stem the tide of farm foreclosures and bankrupt business.
    Farmers could return to managing for success rather than 
finding ways to farm cheaply enough to survive on a meager 
portion of their normal income.
    Thank you to the committee for giving me an opportunity to 
appear before you today.
    [The prepared statement of Mr. Barbie can be found in the 
appendix on page 65.]
    The Chairman. Mr. Barbie, thank you, and thank you for 
coming this great distance to make your case and to give us 
this data and these facts.
    Senator Baucus, as you know, is chair of the Finance 
Committee. We have a trade bill on the floor. He has to be on 
the floor to guide and direct that bill, and I will ask the 
indulgence of the committee now for any statement he would like 
to make or any questions.
    Senator Baucus. Thank you, Mr. Chairman, and I thank all of 
my colleagues, and I will not take advantage of this 
opportunity, but thank you, Mr. Chairman.
    Larry, I wonder if you could just kind of share with 
everybody here another dimension of just how bad this is. For 
example, when I talk to farmers who have been farming for 
years, and their families have been farming, and they compare 
it back to the dust bowl days. Many people tell me that it is 
actually worse, because during the thirties, when there were 
four successive years of drought, actually, there was one year 
in the middle when there was a little bit of rain which tided 
people over.
    Could you comment on that and how this is just worse than 
the thirties? When I drive across Inverness and around the 
south, the dust is just blowing everywhere, and frankly, were 
it not for CRP, we would have a dust bowl thirties situation, I 
believe anyway, because with CRP there is grass in some of that 
land. Otherwise, it would be fallow.
    Second, the vicious or spiraling vicious circle and the 
spiraling down of payments under crop insurance; that is, each 
year, there is less of a yield, and therefore, the crop 
insurance guarantee is less and less each cumulative year and 
how crop insurance really is not much help now. If you could 
describe both of those situations for us and kind of put it in 
real, personal terms compared to the thirties and also, really, 
how crop insurance really does not take up the slack.
    Mr. Barbie. I have asked my Mom about the drought. She will 
be 80 years old this fall, and in the thirties, she said it was 
dry, but it was not this bad. Plus, we have got better farming 
techniques now. I mean, you mentioned CRP, but we strip farm, 
plus we chem-fall. When the chem-fall starts blowing, then, it 
must really be dry. They say the reservoirs, they have never 
seen the water table down or no water in the reservoirs for 
this long. The well is growing dry.
    To address the crop insurance, I use a good example is like 
your grade point average. You get one low score. How long does 
it take to bring that grade point average back up? We have had 
three or four years of this where our averages are going down, 
and it just erodes away from the amount of coverage we can put 
on our crop insurance. Plus, the more you use the crop 
insurance, then, your premium starts to go up.
    Senator Baucus. Again, it is a vicious circle.
    Mr. Barbie. Yes.
    Senator Baucus. It just gets worse and worse and worse 
every year. This is not just one year of drought at least that 
we have had in Montana. This has been four. This is the fourth 
year now.
    Could you also describe for us the effect that it is having 
on towns and on people not buying any fertilizer, not buying 
any fuel, and kind of just what is happening to some of the 
towns in Montana?
    Mr. Barbie. The three towns--there are five towns that are 
within a short distance of me. They consolidated in the 
eighties, and now, the school is looking to make one school. 
The kids are moving out; the people that--there are no jobs 
anymore. A family leaves, and then, it snowballs into another 
family leaving.
    Senator Baucus. Well, Mr. Chairman as the Congress very 
graciously wants to help, say, Florida when there are 
hurricanes and Oklahoma when there are tornadoes and New York 
with the Trade Tower disaster, we just ask in Montana that 
people recognize that even though we are not in the New York 
Times--actually, there was a photograph on the front page of 
the New York Times about 2 weeks ago of Montana drought 
conditions. We are part of the country, and there are other 
states that maybe do not have quite as much media markets as 
some other parts of the country, and we desperately need help.
    I thank you very much for holding this hearing.
    The Chairman. All right; thank you very much, Senator 
Baucus.
    Senator Baucus. Thank you, Larry.
    The Chairman. Thank you, Mr. Barbie.
    I know you have to leave to return to the floor.
    The Chairman. Next, we will turn to Mr. Brian Chandler, 
representing the National Farmers Union. He is from Midland, 
Texas.
    Brian.

 STATEMENT OF BRIAN CHANDLER, NATIONAL FARMERS UNION, MIDLAND, 
                             TEXAS

    Mr. Chandler. Thank you, Chairman Harkin, Ranking Member 
Lugar, members of the Senate Agriculture Committee. I am Brian 
Chandler, an independent grain, cotton, forage and livestock 
producer from Midland, Texas.
    On behalf of the National Farmers Union and family farmers 
and ranchers across the country who suffered substantial crop 
and livestock production losses in 2001 due to drought and 
other weather-related causes, I want to thank you for holding 
this hearing to discuss emergency disaster assistance for 
producers.
    Much attention has rightfully been focused on the economic 
losses suffered by Montana grain and livestock producers as a 
result of the extended drought that has devastated that State. 
I am here, however, to let the committee know that in addition 
to Montana, the lack of moisture in 2001 had a devastating 
effect on farmers and ranchers throughout most of the plains 
state, including my State of Texas.
    Nationally, production losses from drought, flood, disease 
and other uncontrollable weather-related causes reduced the 
economic viability of farmers and ranchers to the point that 
over 25 percent of the 3,141 counties in the U.S. were 
designated by the Secretary of Agriculture as disaster areas in 
2001. An additional 679 counties qualified as contiguous 
counties under the declarations. A copy of the Secretarial 
disaster designations for calendar year 2001 is attached.
    Unfortunately, low-interest loans, payments under the 1996 
Farm bill, supplemental market loss assistance and existing 
crop insurance programs fail to adequately address the real 
needs of producers, local businesses and rural communities that 
have suffered as a result of these production losses. On my 
farm near Midland, our crops were completely decimated by 
drought to the extent that dry line crops were totally 
destroyed, and our soil moisture deficit precluded us from 
utilizing our supplemental irrigation.
    Winter grazing of small grain crops, a normal practice in 
my area, was limited by the poor emergence, stand establishment 
and growth of those crops during the fall and winter. In 
addition, about 80 percent of my hay production was lost or the 
quality reduced due to the lack of available moisture, which 
also reduced hay production of other producers in the area from 
whom I would normally purchase additional feed supplies.
    From a market standpoint, my 2001 cash crops provided me a 
fraction of the expected total income. Mr. Chairman, not only 
did I have fewer bushels to sell, but also, as you are well 
aware, crop prices have been severely depressed since 1998, and 
production costs, particularly those related to energy, such as 
fuel, electricity and fertilizer, increased substantially last 
year, further reducing my income.
    In the case of livestock, due to reduced forage production, 
increased cost of hay and transportation to get it to my farm, 
I had little choice but to reduce my herd size. Many of my 
cattle were marketed at both lower than optimal weight levels 
and during a period when many other livestock producers were 
forced into the same situation, resulting in lower market 
receipts for my cattle as well.
    I utilize crop insurance to help manage the weather risk 
associated with my farming operation and am appreciative of the 
improvements that were made in the program a few years ago that 
allow me to increase my coverage level at a more realistic 
premium cost. However, even with additional coverage for my 
eligible crops, insurance remains an inadequate tool to sustain 
my operation, particularly in the face of a multi-year drought, 
as we are currently experiencing.
    Although crop insurance allows for a reduced impact of low 
yields on a producer's actual production history, my yield 
history is declining to the point that insurance is becoming a 
less valuable risk management tool than it should be. For some 
crops, I can purchase 75 percent coverage, a major improvement 
over the 65 percent guarantee of the old program. Yet, this 
means that I must absorb a 25 percent loss before I begin to 
receive my indemnities.
    Given the low and in many cases negative operating margins 
farmers receive, I am unable to build the level of financial 
cushion, even in relatively good years, necessary to sustain a 
loss of that size. In addition, lenders often encourage or 
require the purchase of crop insurance in order to qualify for 
operating credit, recognizing the benefits to protect their 
investment. However, they are hesitant to provide credit in a 
year following a production disaster, because most farm and 
ranch operations cannot project an income level adequate to 
cover both the uninsured losses of the prior year and operating 
costs for the current crop year.
    For my livestock operation, insurance is just not a viable 
operation to mitigate a combination of forged production and 
forced market losses.
    As you are aware, emergency ad hoc production loss programs 
were approved, along with market assistance, in many years 
prior to 2001. However, for the 2001 production year, Congress 
adopted a more timely supplemental market loss program without 
addressing production disasters because the level of damage was 
unknown and could not be predicted a year ago when action 
occurred on the supplemental economic assistance package.
    The Senate attempted to address this situation by including 
$2.4 billion in emergency disaster relief for crops and 
livestock in its version of the 2002 Farm bill. This action 
provided hope to producers such as myself that some level of 
crop and livestock assistance, in addition to farm program and 
crop insurance benefits, would be forthcoming. Unfortunately, 
the House rejected that provision in conference.
    Farmers and ranchers like me, who suffered losses in 2001 
because of adverse weather that is totally beyond their 
control, truly need your help. The disaster package developed 
by Senator Baucus and adopted by the Senate earlier this year 
would have provided the financial resources needed by producers 
to help offset enough of their losses to allow them to continue 
their operations.
    Mr. Chairman, I urge the committee to take the action 
needed to ensure that the 2001 disaster is appropriately 
addressed and would be pleased to respond to any questions you 
or your colleagues may have. Thank you for the opportunity to 
appear before the committee today.
    [The prepared statement of Mr. Chandler can be found in the 
appendix on page 69.]
    Senator Lugar. [presiding]. Thank you very much, Mr. 
Chandler. We always appreciate testimony from the National 
Farmers Union, and we are grateful now for testimony from the 
National Cattlemen's Beef Association, Mr. Bryan Dierlam.
    Mr. Dierlam.

     STATEMENT OF BRIAN DIERLAM, NATIONAL CATTLEMEN'S BEEF 
                  ASSOCIATION, WASHINGTON, DC

    Mr. Dierlam. Thank you, Senator Lugar.
    Senator Lugar and members of the Senate Agriculture 
Committee, I am Bryan Dierlam, the director of legislative 
affairs for the National Cattlemen's Beef Association, and 
thank you for being able to testify on behalf of beef producers 
suffering from extensive drought conditions.
    Drought is devastating many parts of the country. When 
drought conditions hit, management options quickly become 
limited. With decreasing forage on pastures and rangelands, 
producers purchase hay and supplemental feed for cattle. This 
hay and feed typically comes long distances and from areas not 
impacted by the drought, entailing large shipping and 
transportation costs. Another option is to find areas of the 
country where forage is abundant and then to ship the livestock 
there.
    Often, however, these two options are not warranted, given 
the prevailing market conditions, and producers often liquidate 
parts or all of their herds, many times into falling markets. 
This strains producers and rural communities depending on 
livestock to fuel the local economy. The situation is no 
different for ranchers grazing on public lands. As the drought 
intensifies, access to public lands is diminished, and private 
ground, which is typically where hay is grown and cattle are 
wintered, becomes even more stressed, leaving liquidation as 
the only option.
    We would encourage land managers in the Forest Service to 
take the same steps already taken by the Bureau of Land 
Management to help states deal with the drought. This includes 
opening rested pastures, shifting use to allotments where non-
use has occurred, shifting to upper elevations and other areas 
of higher precipitation, and expediting the approval process 
for temporary water troughs and water haul sites.
    For the beef industry, the impact of a drought lasts longer 
than the drought itself, because producers are forced to sell 
their production base. Ranchers cannot simply shut the factory 
down and let it sit idle. Cattle must eat. The equivalent would 
be a manufacturing plant not only shutting down but having to 
liquidate all of its plant property and equipment. This hurts 
the long-term competitiveness of the beef industry.
    Recovery time after a drought is further extended, because 
cattle that replace those that are liquidated must cycle 
through an entire production cycle before the rancher can 
receive income again. This drought is severe; it is 
significant, and it is destructive. Parts of Arizona, Utah and 
Montana would require nearly 8 inches of rain to end the 
drought, and parts of Wyoming would require in excess of 9 
inches. Parts of California and Colorado need in excess of 7 
inches.
    For comparison purposes, I have attached a map at the back 
of my testimony which show the drought conditions in May of 
2000, 2001 and 2002. The current conditions are worse than the 
same date in the two previous years. The timing of this request 
for drought assistance does come on the heels of the Farm bill, 
and many observers wonder why this aid should be provided, 
given that the Farm bill just passed. This is perhaps a fair 
question, and I would like to provide some context from the 
beef industry's perspective.
    The Livestock Feed Assistance Program was eliminated in the 
1996 Farm bill. After that occurred, severe droughts impacted 
many parts of the country. Since there was no longer an 
authorized program, Congress responded with ad hoc funding for 
the Livestock Assistance Program in 1998, 1999 and 2000. To 
help end ad hoc disaster programs, NCBA worked for and 
supported the inclusion of the Livestock Assistance Program, 
which is part of the Farm bill recently signed by the 
President.
    For future years, budget riders will be able to plan for 
the program, and it will no longer have to be funded on an ad 
hoc basis but rather through the normal appropriations process. 
Even though this program is in place for future disasters, the 
remaining question is what do we do for 2001? NCBA supports 
providing $500 million for the Livestock Assistance Program to 
cover drought losses for 2001. This funding will bridge the gap 
between previous ad hoc measures and the implementation of the 
measures contained within the Farm bill.
    The Livestock Assistance Program is not the only drought 
management program that we have worked on. The National 
Cattlemen's Beef Association supported provisions contained in 
the Agricultural Risk Protection Act of 2000 that called for 
the development of pasture, range and forage insurance. These 
programs are currently in development. The Risk Management 
Agency at USDA has contracted with a firm named Agrilogic to 
complete a feasibility study on insurance policies that could 
cover drought and fire damage.
    The feasibility study will form the basis of pasture, range 
and forage policies, and Agrilogic is scheduled to submit this 
feasibility study to RMA in July. After review and approval by 
RMA, development work on the insurance products can begin. That 
development work will entail actuarial tables, underwriting, 
ratings and other documentation. After that work is done, we 
could soon see on the market risk management and insurance type 
programs to work for pasture, range and forage products.
    This program appears promising and will be an additional 
tool for producers to use. We have worked aggressively with 
Agrilogic throughout their feasibility study. They have 
attended our meetings and held listening sessions across the 
country, and we have provided input to hopefully make this 
program very usable.
    It does take time to implement our laws and to implement 
the work models and products that need to be developed, 
especially out of something like the Agricultural Risk 
Protection Act. Often, the administrative processes turn much 
more slowly than the calving cycle, the weather cycle or the 
Federal budgeting process.
    NCBA has worked with Congress to develop programs and tools 
that can help us get away from ad hoc disaster programs, but 
until these programs are up and running, beef producers need 
help and assistance for the years not covered by the Farm bill 
and not covered by the drought development tools that are 
currently in development.
    The National Cattlemen's Beef Association, our leadership 
and our members will continue working with Congress and the 
administration to find ways to help producers deal with this 
drought and to bridge the gap between the old programs and the 
programs to be implemented in the new Farm bill and also the 
new drought management tools.
    I will be happy to answer any questions and thank you for 
being able to testify today.
    [The prepared statement of Mr. Dierlam can be found in the 
appendix on page 75.]
    Senator Lugar. Thank you very much for your testimony.
    Mr. Dierlam. Thank you.
    Senator Lugar. I would like to call now upon Mr. Bob Green, 
executive director of the Michigan Bean Commission, St. John's, 
Michigan, and I would note for the record that your faithful 
Senator from Michigan is still here to hear that testimony.
    Mr. Green. I certainly appreciate that, Mr. Chairman.
    Senator Lugar. Mr. Green.

   STATEMENT OF BOB GREEN, EXECUTIVE DIRECTOR, MICHIGAN BEAN 
                COMMISSION, ST. JOHN'S, MICHIGAN

    Mr. Green. I represent the growers of dry beans in 
Michigan. There are about 3,000 strong of them. The grower 
organization is 100 percent funded by those growers, and we are 
charged with promotion, market development and research.
    During the 2001 growing season, the Michigan bean industry 
was the unwelcome recipient of the most devastating bean crop 
in recorded history. The National Agricultural Statistics 
Service, NASS, reports that only 130,000 acres were harvested 
out of the 215,000 acres that were planted. Yield for the 2001 
crop, according to NASS, was only 600 pounds per acre 
harvested, compared to a normal average yield of around 1,800 
pounds. This is the lowest yield since 1936 for dry beans. 
Total production amounted to only 780,000 bags, which is the 
lowest total harvested since numbers were kept starting in 
1909. By comparison, the 2000 crop of dry beans in Michigan was 
over 4.4 million bags.
    In one of the handouts, you have a graph, and on that 
graph, it compares the 2000 crop in the red versus the 2001 
crop in the yellow for some specific classes of beans, and you 
can see the dramatic difference that happened last year.
    Additional Michigan crops suffered from the weather 
disaster of 2001 as well. Eighty-two of the 83 counties in 
Michigan were declared a disaster last year by the USDA. 
Soybeans, corn, pickles and grapes and other specialty crops 
were all affected. All of these crops did have their respective 
problems. All of these crops certainly had much lower yields in 
the affected drought areas. However, none of these other crops 
suffered the total statewide devastation that dry beans did, 
and none of them will have the total negative impact on their 
producers that this year's dry bean crop had.
    An additional factor, and Senator Stabenow mentioned this 
in her opening remarks, is that dry beans are not covered under 
any Government farm program. There are no subsidies and/or LDPs 
for dry beans.
    The Lansing State Journal front page article on November 
21, 2001, stated it best: Michigan's dry bean crop nearly wiped 
out. A number of growers could also be wiped out.
    On another poster that I handed out, you will see the 
revenue from the 2001 crop actual, which was $12 million, 
versus the 2000 crop, which was $100 million--$88 million 
difference between the 2000 crop and the 2001. Michigan bean 
growers are not alone. Many regions of the country were faced 
with significant crop and livestock losses, as we've already 
heard. In many cases, producers did not have a crop to harvest, 
and livestock producers were faced with higher feed costs 
because they had to purchase hay that they would normally grow 
on their own farms and ranches.
    The severe weather and disease conditions have had a 
negative impact on the livelihood of American farmers and 
ranchers in the rural communities in which they operate. 
Emergency relief is critical at this time in order to prevent 
further economic loss.
    The agriculture emergency assistance package would provide 
$2.3 billion in immediate assistance to producers, $1.8 billion 
for producers with crop losses and $500 million for producers 
with livestock losses. Without this assistance, the economic 
conditions in rural America will only worsen. The Michigan Bean 
Commission and the 3,000 dry bean growers it represents 
appreciates the opportunity to testify and report to the Senate 
Committee on Agriculture, Nutrition and Forestry on the dry 
bean disaster of 2001. These dry bean growers ask for your 
consideration as you debate and decide the future of disaster 
relief for the 2001 crop year.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Green can be found in the 
appendix on page 80.]
    The Chairman. [presiding]. Thank you very much, Bob, Mr. 
Green, for being here and for providing this testimony. I am 
told the vote just started. Can someone verify that for me?
    Senator Lugar. Yes.
    The Chairman. It did?
    Senator Stabenow. Mr. Chairman, if I might just ask 
unanimous consent----
    The Chairman. Yes.
    Senator Stabenow [continuing]. I have two letters, one from 
the Michigan Farm Bureau and also the Cherry Marketing 
Institute in Michigan expressing as well what has happened in 
Michigan, and I would appreciate that being a part of the 
record.
    The Chairman. Thank you. They will be made a part of the 
record.
    [The information referred to can be found in the appendix 
on page 84 & 86.]
    The Chairman. I just have one thing, Dr. Collins, that I 
would like to ask for the record. We have heard from producers 
who lost crops to drought. Although the Agriculture Risk 
Protection Act of 2000 did improve the insurable yields for 
those who had suffered crop losses, we have heard from several 
people here today who explained that repeated crop losses can 
devastate a producer's crop insurance yield.
    For most producers, the lower yields also mean higher 
premium rates. Producers who lose crops for two or more 
consecutive years are simply unable to regain financial 
stability. Does the Department have any suggestions or any 
advice on how we might improve crop insurance for these 
producers? I mean, we have heard that from a couple or three 
people here today.
    Mr. Collins. Yes, Mr. Chairman, we have heard that.
    I would say first of all that despite the heavy subsidies 
of the program, we do try and run the program and are required 
by law to run it in an actuarially sound way. That means that 
when we are establishing the policy parameters for an 
individual insured, we are trying to establish a yield that is 
their expected yield in a statistical sense, their most likely 
yield.
    What we do is we use a long-term average of their 
historical yields, up to 10 years. Then, if they have a bad 
year, it is true that this average could get pulled down, and 
if they have a couple of bad years, this average could get 
pulled down.
    That was dealt with in the Agriculture Risk Protection Act. 
Now, maybe some people felt it was not dealt with adequately 
enough, but the Agriculture Risk Protection Act put a so-called 
cup into the formula. If a producer has a bad year, a very low 
yield, they can throw it out, and they can use 60 percent of 
the so-called T-yield for that year. The T-yield is the county 
average yield.
    Now, if they do not want to do that, if they do not want to 
use the plug yield for that year, then, the most their yield 
can drop in a year is 10 percent. We have two kinds of cups in 
there to protect their yield from falling too far. Now, this 
makes a lot of sense when yield is varied, when it goes up and 
down from year to year, because you really do not want to 
penalize somebody who happens to have a bad year or two bad 
years.
    The problem becomes when somebody has five or six or seven 
bad years in a row. Then, it is true, their yield falls. Then, 
you have to ask a fundamental question: what is their expected 
yield? Should it really be a lot higher than that, or should it 
be lower? Do 5 or 6 years really better reflect their expected 
yield?
    This is not an easy question to answer when you are trying 
to run an actuarially sound program.
    The Chairman. I still want to examine this even further, 
especially as it relates to prevented planting and what the 
effectiveness of prevented planting coverage is in crop 
insurance.
    Do any of you want to speak to that? Craig, I do not know 
if you want to talk about it. We have had some problems in Iowa 
in prevented planting.
    Mr. Hill. Yes.
    The Chairman. How is that----
    Mr. Hill. Well, I have had a number of producers tell me 
that, of course, cash rent, the fixed cost of cash rent must be 
paid, and that prevented planning payment goes toward cash 
rent. Sometimes, there is $20 or $30 left over after that fixed 
cost is paid. The maintenance cost of those acres, the 
spraying, the mowing, the upkeep, sometimes can range as high 
as $20 or $30. There are no funds available to pay for those 
machinery expenses that go on or living expenses; all those 
other expenses that continue on above and beyond that.
    The Chairman. Thank you.
    Senator Lugar.
    Senator Lugar. Just a quick question of Dr. Collins: what 
is the administration's view of the $2.3 billion expenditure?
    Mr. Collins. Senator Lugar, you expressed pretty well in 
your opening comments the administration's view. The 
administration felt that those funds, which would be applied to 
2001 losses, should have been dealt with in the Farm bill 
conference. They should have come out of the $73.5 billion. The 
administration has not opposed disaster assistance. They have 
felt up to this point that it should be paid for and that the 
appropriate place to pay for that should have been in the Farm 
bill.
    Senator Lugar. Does OMB or anyone else have offsets, any 
pragmatic way in which this failure on our part to include it 
can be paid for?
    Mr. Collins. No, but I can say that I have spoken with OMB 
and other administration officials, and they are certainly 
willing to try and find offsets in the Farm bill to accommodate 
disaster assistance. Now, the actual dimensions of the disaster 
assistance are another point of issue. You have seen the 
President's comments when he signed the Farm bill. What he was 
doing was pointing us all, the Congress and the administration, 
toward taking a very good inventory of what is available under 
the portfolio of programs that I mentioned, many of which have 
been changed over the last couple of years, combined with the 
Farm bill, which is new legislation, and then see what falls 
through the cracks after that.
    Senator Lugar. Could, then, therefore, the administration 
be helpful to the committee in this quick study? It is a large 
bill, we have all struggled with the provisions, but what in 
the bill either might be delayed or offset, or what in the bill 
provides something that might diminish the need for $2.3 
billion more? In other words, pragmatically, this is an 
invitation, perhaps, the Chairman would share to work together. 
Fairly rapidly, in the next few days--we are going to be in 
recess but to have some recommendation before we go to markup 
or action that the Chairman might want to do?
    Mr. Collins. There would be willingness to discuss that, 
and I will carry that message back to my friends at USDA and my 
colleagues at OMB.
    Senator Lugar. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    I feel constrained to say here that we had the $73.5 
billion. I understand that. That just does not cover 
emergencies and contingencies like this. I will say that if 
this fall, God forbid, a huge hurricane hits Florida and 
Georgia and South Carolina and wipes out towns and wipes out 
things, I mean, we are not going to say sorry, cannot do 
anything about it; it has got to come out of whatever budget we 
have.
    We always respond to emergencies in this country, whether 
it's a tornado that hits Oklahoma or someplace or a flood or 
hurricane or anything like that; natural disasters, we always 
respond to these as emergency situations. We cannot anticipate 
those.
    Now, to the extent that we tried in the revised crop 
insurance bill, which we passed, we made some great strides 
toward that. I have indicated in my question to you and have 
been enunciated by some of the people sitting here today and by 
many others, that you can get into a spiraling situation; OK, 
for one year, but you get two or three or four years, you are 
in real trouble, even with the generous provisions that we have 
in the crop insurance program.
    We cannot provide for every contingency, and we have to 
address these as they come up if they are true emergencies. I 
hope that we can work this out with the administration to find 
the wherewithal to take care of a very severe drought.
    We have only about 5 minutes left in the vote. I have a lot 
of questions, but once we get in this vote, we are not going to 
be able to come back. There are going to be a lot of votes on 
this trade bill. I just invite anyone here, if you have any 
further comments or points that you want to make that maybe you 
want covered----
    Senator Stabenow. Mr. Chairman?
    The Chairman. Oh, I am sorry; Senator Stabenow?
    Senator Stabenow. Thank you. I would appreciate, if I might 
just ask a question as well----
    The Chairman. Absolutely.
    Senator Stabenow [continuing]. I wanted to just followup 
and support your statements as well regarding the question of 
emergency assistance and also indicate that while we have 
appreciated in Michigan that we have qualified for low-interest 
loans through disaster assistance, our farmers have enough 
loans. What they need is some direct assistance in an emergency 
just as we would for any other kind of disaster.
    I would strongly urge that we do what we tried to do, what 
we did do in the Senate originally when we passed the Farm bill 
and added additional assistance, that we treat agriculture as 
we would other emergencies.
    I do have one additional question, Dr. Collins, that I 
would appreciate an answer on. I have been hearing reports in 
Michigan about some problems with the NAP program, the non-
insurable crop insurance, and in particular, we have a lot of 
growers like cherries, for example, that did not realize that 
they were eligible for assistance and the deadline. I am 
wondering if the administration is aware of this and if you 
would be willing to extend the deadline.
    Mr. Collins. I am not sure I could answer that right here 
today. I am not aware of the extent to which producers missed 
the deadline. I am sure there are some. The NAP program was 
reformed in the Agriculture Risk Protection Act of 2000. 
Unfortunately, it took us until March 19, 2002, to promulgate 
the rules of that reform, and producers who suffered losses 
during 2001 then had to come in and pay their $100 plus to 
participate in that program. The rules require that they enroll 
and pay 30 days prior to the coverage period.
    We were tardy in promulgating the rule, and people came 
after the coverage period and were able to pay and enroll. We 
are also accepting payments for the coverage period in 2002 
now. There is no doubt in my mind that there are probably some 
producers who have fallen through the cracks on this. I will go 
back and look at this question. I cannot answer the question at 
the moment of whether we would extend that deadline of having 
to pay your per-crop, per-county fee prior to the coverage 
period.
    Senator Stabenow. Well, I would urge you, and I would 
appreciate a followup with my office----
    Mr. Collins. OK.
    Senator Stabenow [continuing]. Regarding this.
    Mr. Collins. Sure.
    Senator Stabenow. Because, obviously, of the lengthy time 
in promulgating the rules, this is very serious. Again, 
cherries as an example in Michigan are now facing another very 
difficult disaster situation with unseasonably warm weather in 
April; with a return to very cold weather; and now, some real 
concerns about yield. They are very concerned, and I would like 
very much to make sure that what we had intended, in fact, will 
be available to people and that we would not hold artificial 
deadlines out that would get in the way of actually meeting the 
needs that we I know together wish to meet.
    Mr. Collins. Well, the deadline itself is fashioned around 
the deadlines we have for crop insurance. You know, we have a 
so-called sales closing date for crop insurance. It is a 
parallel concept that we are using for NAP. I will go back and 
see how flexible we are in that.
    Senator Stabenow. I would appreciate it.
    Mr. Collins. OK.
    The Chairman. Thank you.
    We have about 2 minutes left.
    Mr. Green, do bean producers up your way, do they use 
Federal crop insurance?
    Mr. Green. Yes, they do.
    The Chairman. OK; I just did not know.
    Mr. Green. We probably had about 75 percent of them last 
year that used the Federal crop insurance, but of course, a 
number of them used the catastrophic. Then, of course, there 
are always issues all the way down with that, Mr. Chairman, 
from the issue of what the price is. It was--in the 
catastrophic, it was like $7.50, roughly, plus half the yield. 
As I stated in my testimony, the price is usually pegged around 
$16 just for the cost of production.
    Of course, I have another grower who always says, well, he 
says what person in their right mind only insures the last 65 
percent of their car? He has a point there as well.
    The Chairman. Thank you all.
    I apologize. I had no idea--I thought we were going to 
start voting at 6, but we are now on our first vote on the 
trade bill. Again, I thank you all for being here, some of you 
coming a great distance. Thank you for your testimony. This 
committee will meet sometime shortly after we get back from the 
Memorial Day break to see if we can mark up a bill that would 
respond to the needs that we have out there on this disaster 
assistance program.
    Again, I thank you very much, and the committee will stand 
adjourned until the call of the chair.
    [Whereupon, at 4:33 p.m., the committee adjourned.]
      
=======================================================================


                            A P P E N D I X

                              May 23, 2002



      
=======================================================================




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

=====================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              May 23, 2002




=======================================================================




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
